n
-
entitled

    -

-(the
        -
                 complainant)
                             CLOSEOUT FOR M94020005

        This case came to OIG on February 17, 1994, when S"F-
director for
                     contacted
                             mu-s c



                        s a - of- -
                                                                  -
                                                   the ~ i v i s i o- fno
                                                     with
                                                                                         program

                                                                                   The proposal,



                                                                      .a possible reviewer. When
 the program officer called the complainant to ascertain whether he would be interested in
 reviewing a proposal on this topic, the complainant,identifiedthe P.1; from the program officer's
 one sentence description of the subject matter of the proposal. The complainant expressed
 concern that this proposal might derive from an earlier collaborative proposal that he and the
 subject had written and submitted to an unnamed organization. He asked to see the NSF
 proposal to determine if there was an ethical problem.

       When the program officer contacted OIG, we advised him not to send the proposal to the
complainant for review, noting that his ethical concerns might bias his evaluation of the
substance of the proposal.

        OIG telephoned the complainant and requested that he send us a copy of the collaborative
proposal so that we could determine whether there was reason to believe that the subject had
committed intellectual theft. The co~nplainantrefused this request and asked that OIG instead
send him a copy of the subject's proposal. We explained to him that NSF policy is to treat
proposals as confidential and to send them only to peer reviewers or, if necessary, to objective
experts recruited by OIG to assist in misconduct inquiries. The complainant stated that he was
unwilling to send us a copy of the collaborative proposal without the subject's knowledge and
that he had insufficient basis for any ethical concerns to justify infonning the subject that there
might be an ethical problem. Because the complainant did not tell us to what organization he
and the subject had submitted their collaborative proposal, OIG cannot try and obtain the
proposal from anyone other than the complainant and the subject.

        The complainant offered a brief verbal description of his own contribution to the
collaborative proposal. OIG examined the NSF proposal and determined that one part of it
proposed using materials originally developed by the complainant, whose published work was
cited in connection with these materials. We concluded that without knowing what exactly the
two researchers had developed collaboratively, it would not be possible to determine definitively
whether the subject had stolen the complainant's ideas.


                                           Page 1 of 2                                    M94-05
                             CLOSEOUT FOR M94020005

        The complainant subsequently informed OIG that he had asked the subject whether the
subject was independently seeking funding for work involved in the collaborative project. The
subject replied that he was pursuing independent funding for his own part of the research. The
complainant told OIG that he was satisfied with this reply and did not wish to pursue the matter
further.

       The available evidence, especially the subject's suggestion that the complainant review
the proposal and the subject's statement to the complainant that he was pursuing independent
funding for his own portion of the collaborative project, does not support an allegation of
misconduct. Although an examination of the collaborative proposal could settle any lingering
doubts about possible misconduct, we believe that under the circumstances there is no basis for
contacting the subject and requesting a copy of the proposal. To do so might jeopardize an
ongoing collaboration in order to exclude a remote possibility of misconduct.

       This case is closed and no further action will be taken.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 2 of 2
